*\

SUPREME COURT OF THE UNITED STATES

Robert V. Bolinske,
Plaintiff-Appellant
v.
North Dakota Supreme Court, State of
North Dakota, Disciplinary Board the
N.D. Supreme Court, Office of Disciplinary
Counsel, Inquiry Committee West,
Dale Sandstrom, Gail Hagerty, Lisa K.
McEvers, Daniel Crothers,
Defendants-Appellees.

PLAINTIFF APPELLANT
ROBERT V. BOLINSKE’S
APPENDIX

Case No. 19-2516

APPELLANT BOLINSKE’S APPENDIX

Page
1.

Robert V. Bolinske Resume (Campaign Flyer)

1

2.

Proposed Amended Complaint

2

3.

District Court, the Honorable Donavan Frank, Memorandum
And Order dated June 20,2019

17

U.S. Eighth Circuit Court of Appeals Decision filed
August 4,2020

29

4.

X
i

Mi i:
l

ill

v,

iUHl

Oberon, ND Farm
Father: Farmer & Trapper
Mother: Homemaker & “Character”
Oldest of Nine Children

i

-

>o

• • 'V^N-

V

V

Oberon Grade School
Minot Jr. High School

■\

Rugby High School -1962
• Co-Captain 1962 ND State Class A Basketball
Champions (defeated Phil Jackson’s Williston
Coyotes) -1962
• Football Co-Captain and Leading Tackier -1962
University of North Dakota -1966
• Phi Beta Kappa • Magna Cum Laude

L

/

1*

v

'4\

.a
<jj

Harvard Law School -1969
Trial Lawyer
• Minneapolis-Cant, Haverstock 1969 -1975
• Zuger & Bucklin and Zuger, Kirmis, Bolinske and
Smith 1975-1993
• Bolinske Law Firm -1993 to present, Bismarck
Outdoorsman Contests Overall Champion
• Fargo, ND circa 1981
• Bismarck, ND circa 1983
First Place
• Trapsetting
• Hatchet Throwing
• Snowshoe Racing
• Fire Starting
• Obstacle Course

FAIRNESS, EQUAL JUSTICE AND RESPECT FDR EVERYONE
“A JUSTICE FOR THE PEOPLE”
7600 Northgate Drive • Bismarck, ND 58504 *.(701) 222*2035 • FirstRVB@gmail.com • www.BolinskeSrLaw.com
PAID FOR BY ROBERT V. BOLINSKE, SR.CANDIDATE FOR THE N.D. SUPREME COURT

©

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NORTH DAKOTA
SOUTHWESTERN DIVISION

Robert V. Bolinske,
Plaintiff

AMENDED

V.

COMPLAINT

North Dakota Supreme Court
State of North Dakota
Disciplinary Board of the N.D. Supreme
Court
Office of Disciplinary Counsel
Inquiry Committee West
N.D. Supreme Court Former Justice Dale
Sandstrom
N.D. District Judge Gail Haggerty
N.D. Supreme Court Justice Lisa M. McEvers
N.D. Supreme Court Justice Daniel Crothers,

Case No. 1:18-CV-213

• (Jury Trial Demanded)

Defendants
COMPLAINT
Plaintiff Robert V. Bolinske (hereinafter, “Bolinske”), Attorney Pro Se, as and for his
Complaint against Defendants, hereby alleges as follows:
NATURE OF THE ACTION
1.

This is an action for die denial of substantive and procedural Due Process under the

United State Constitution, damages to plaintiff Bolinske resulting therefrom, for defamation,
and for other causes of action and damages as alleged herein.
1

.%

JURISDICTION AND VENUE
2.

This claim arises under the Due Process provisions of the United State Constitution.

This Court has subject matter jurisdiction pursuant to Article III, §2 thereof, 42 U.S.C. §
1983,42 U.S.C. 1985,28 U.S.C. §1331 and 28 U.S.C. §1343.

PARTIES
3.

Bolinske is an attorney licensed to practice law in the state of North Dakota, the federal

courts located therein and the United States Supreme Court. North Dakota is a state
recognized by and a part of the United States of America and is liable for the actions of its
entities, agencies and agents. The North Dakota Supreme Court is an entity of government
created and recognized by the state of North Dakota and is liable for the actions of its
entities, agencies and agents. The Office of Disciplinary Counsel, the Disciplinary Board of
\.

.*»

North Dakota, and the Inquiry Committee West are entities created by the North Dakota
Supreme Court and/or its agents and the North Dakota Supreme Court is liable for their
actions. Lisa K. McEvers and Daniel Crothers are Justices of the North Dakota Supreme
Court. Dale Sandstrom is a former Justice of the North Dakota Supreme Court. Gail
Haggerty is the wife of Dale Sandstrom and a North Dakota District Judge. All individuals
named as defendants are being sued in their individual and official capacities.

INTRODUCTION AND FACTUAL BACKGROUND
4.

In October, 2016, Bolinske alleged in a press release that substantial evidence existed

that then Justice of the N.D. Supreme Court Dale Sandstrom had committed a felony in
violation of N.D.C.C. § 12.1-11-05 which prohibits tampering with public records.
5.

Bolinske further alleged that Sandstrom had conspired with his wife District Judge Gail

Haggerty to misfile and hide a Petition for Supervisory Writ Bolinske had filed with the N.D.
2

Supreme Court which was highly critical of Haggerty. Somehow, the Petition which was
filed in a civil action was transferred to and essentially hidden in public records in a criminal
action in which Justice Sandstrom had previously written the decision.
6.

Civil and criminal cases have vastly different (1) case and (2) docket numbering

systems. Criminal cases are designated, e.g., “Criminal No. 960066”. (This is the State of
N.D. v.Paul Shephard. 554 N.W. 2d §61 (N.D. 1996) case in which the Petition highly
critical of Sandstrom’s wife, District Judge Haggerty was essentially hidden.) Civil cases, as
was the Petition for a Supervisory Writ, are designated, e.g., (1) “20000075 R.S.S.”, which
was the Docket number and (2) the case designation was “Civil No. 99-C-1007” for the
Supervisory Writ case against Haggerty. (Delano Grey Bear v. N.D, Department of Human
Services..651 N.W. 2d 611 (N.D. 2002).)
7.

Further the Petition for a Supervisory Writ in Grey Bear was a civil case begun in 2000
\4

.

and ultimately decided by the N.D. Supreme Court inl2002, while the Shepherd case was
V

decided in 1996. Thus, we have records from a civil case (Grey Bear) begun in 2000 being
placed in the records of a criminal case (Shepherd) in which the decision written by
Sandstrom was issued in 1996.
8.

Justice Sandstrom was the creator of the N.D. Supreme Court website, was the website’s

“Web-Master”, and had total control over and access to the website in which the records
were misplaced and hidden from public view. Sandstrom, as Haggerty’s husband, had both
motive and opportunity to make the improper and unlawful record transfers.
9.

That, prior to making the above allegations Bolinske did some two years of

investigations, research and analysis, and submitted approximately 350-500 pages of
evidence and analysis in support of his claims.
10. That Bolinkse is an experienced trial lawyer, graduated from UND magna cum laude,
Phi Beta Kappa and with Honors in 1966, and graduated from Harvard Law School in 1969.
3

He would not have made the subject allegations unless he believed them to be true and had
accumulated substantial evidence in their support.
11. That further, Rule 8.3, (a) Reporting Professional misconduct, (the N.D. Rules of
Professional Conduct) provides that “A lawyer who knows that another lawyer has
Committed a violation of these Rules that raises a substantial question as to that lawyer’s
\
•

■

Honesty, trustworthiness, of fitness as a lawyer in other respects shall initiate proceedings
Under the North Dakota Rules for Lawyer Discipline”. That is exactly what Bolinske did in
filing a Grievance Complaint against Sandstrom and Haggerty. In it he alleged that not only
did they conspire to and actually tamper with public records, but that they also repeatedly
failed to recuse themselves as judges in Bolinske’s cases. That Complaint was not even
seriously investigated but was instead wrongfully dismissed by the Office of Disciplinary
Counsel. Instead it was Bolinske who was placed in the stocks in a farcical, unfair,
i.

incompetent and unconstitutional grievance procedure created by the North Dakota Supreme
Court and administered by the Office of Disciplinary Counsel, the Disciplinary Board of the
N.D. Supreme Court and the N.D. Supreme Court itself.
12.

“As a public citizen, a lawyer should seek improvement of the law, the administration

ofjustice and quality of service rendered by the legal profession” Preamble: A Lawyer’s
Responsibilities—N.D. Rules of Professional Conduct That is exactly what Bolinske was
attempting to accomplish in reporting what he believed to be the unlawful and wrongful
conduct of Justice Sandstrom and his wife District Judge Haggerty.
13.

Judge Haggerty filed a Grievance Complaint against Bolinske dated October 21,

2016 alleging that Bolinske’s allegations above described violated the N.D. Rules of
Professional Conduct. Bolinske denied that his conduct was unethical, and contended that he
was ethically required to report the suspected violations.
14.

The Inquiry Committee, after a minimal 30-45 minute hearing in March, 2017, found
4

(V

that Bolinske violated Rules of Professional Conduct relating to making false statements
concerning the qualifications or integrity of a judge. It further concluded that Bolinske’s
allegations were made “knowingly or with reckless disregard as to their truth or falsity”.
Bolinske steadfastly denies the accuracy of that finding and contends that he can prove its
falsity with the N.D. Supreme Court’s very own documents.
15.

The Inquiry Committee based its finding based its finding solely on its conclusion that

Bolinske’s allegations were made “knowingly or with reckless disregard of their truth or
falsity” because Chief Justice Vande Walle had advised Bolinske in a letter dated September
19,2008 that the misfiling had occurred as a result of “clerical oversight”. First, that is not
what Justice Vande Walle said at all, Instead, in his letter, he said that “they are unsure of
what happened. However, sometime ago data was transferred from one machine to another
and it appears that during the transfer the improper case name was entered for the above (Re:
Bolinske v. Haggerty) case”. Second, a letter dated October 30,2008 from Chief Deputy
V

Clerk Colette Bruggman to Bolinske specifically states, as to the cause of the mis-filings, that
“The information provided tends to rule out data transfer as a cause”. Thus, the N.D.
Supreme Court’s very own records clearly establish that the basis for the Inquiry
Committee’s decision is factually erroneous in that it makes clear that the “clerical mistake”
during a “data transfer” was not the cause of the records being hidden.
16.

Then, when Bolinske appealed the Inquiry Committee’s decision to the Disciplinary

Board of N.D. Supreme Court, the decision was affirmed with no hearing, no opportunity for
Bolinske to appear, no record of its proceedings, no analysis, discussion or explanation
whatsoever, hi its letter decision dated July 24,2017, the Disciplinary Board states only the
conclusion that “the Disciplinary Board affirmed the decision of the Inquiry Committee West
to issue an admonition”. Coonsequently, in any appeal to the N.D. Supreme Court, which
Bolinske pursued, there was no record, no analysis and no explanation to review, effectively
5

denying Bolinske the opportunity and right to review of the Disciplinary Board’s decision.
17.

Bolinske did appeal to the N.D. Supreme Court, which, without investigating or even

discussing the actual facts of the case, affirmed the Disciplinary Board’s decision.
18. That the entirety of North Dakota’s disciplinary procedures, rules and the
implementation thereof were in this case a farce and a sham in that Bolinske was unlawfully
v ,

'

denied his substantive and procedural Due Process rights under the U.S. Constitution, all to
his substantial damage, in that he was subjected to the potential taking or suspension of his
property in the form of his hard-earned law license and right to practice law, substantial
emotional distress and die serious financial losses which he suffered in being required to
’ respond to the machinations, allegations, lack of competence, and farcical procedures of the
North Dakota Supreme Court and its agents, the Office of Disciplinary Counsel and the
Disciplinary Board.
19.
V.

More specifically, Bolinske was denied in the above proceedings before the Inquiry

Committee and/or Disciplinary Board:
(1) A jury trial of his peers and the right of voir dire;
(2) The right of cross-examination;
(3) The right to confront his accusers;
(4) The right to call witnesses;
(5) The right to record the proceedings at the Inquiry Committee and the
Disciplinary Board stages;
(6) The right to a reasonable amount of time to present his case, not the mere 3045 minutes as he was here given by the Inquiry Committee;
(7) The right to even appear and argue his case before the Disciplinary Board;
6

©

(8) All the protections afforded to him by the rules of civil procedure and rules of
evidence;
(9) The right to know the nature of definitions of die allegations against him in
that the words “with reckless disregard” are nowhere defined in the Rules of
Professional Conduct Nor is the meaning of “Clear and convincing
evidence”, (the standard that must be reached before discipline of any type
may be imposed on a lawyer). Consequently, the entire lawyer discipline
process in this case was ambiguous.
• (10) The right to discovery;
\4

(11) The right to see and challenge the report prepared by Disciplinary
V

Counsel;
(12) The right to respond to Findings of Fact and Conclusions of Law,
because there were here none created, resulting in the denial of a meaningful
appeal process;
20.

Even Justice Crowthers, at oral argument questioned the process, rules and

procedures used and suggested that they be “tweaked”. Instead, Bolinske submits
that they be taken out behind the bam and shot. It is a disgrace that this extremely
flawed system, created by attorneys of all people, should be allowed to exist, and
jeopardize the rights and reputations of attorneys.

7

21.

Strangely, under the rules here applicable, N.D.R. Lawyer Discipline 3.1(D)(8),

Bolinske’s Petition to Appeal to the N.D. Supreme Court cannot be granted unless “the
person seeking to appeal shows that the (Disciplinary) board acted arbitrarily, capriciously,
or unreasonably”. Bolinske obviously made the necessary showing because the N.D.
Supreme Court itself granted his petition to appeal. Then,in its decision in this matter, on
the very same evidence, and arguments, held exactly the opposite. Somehow having
already once made the determination that the board acted arbitrarily, capriciously or
unreasonably, the N.D. Supreme Court turned right around and made the exact, 180
degree, opposite decision. This is pure folly and the height of intellectual dishonesty.
Its Alice in Wonderland material: “Words mean what I want them to mean”.
22.

. Justices McEvers and Crowthers acted unethically and unfairly in both their

• individual and official capacities when they participated in the subject decisioa McEvers
knew or should have known that Bolinske intended to run against her in the current 2018
N.D. Supreme Court race because he had many times said just that, including in documents
filed in the Bolinske v. Disciplinary Board case before the N.D. Supreme Court before its
decision. Nevertheless, she participated in oral argument on the case, and, on information
and belief participated in discussions with other Justices and clerks both before and after
oral argument While she did finally recuse herself before the decision was issued, her
participation prior thereto was improper, unethical and prejudicial Justice Crowthers
should have recused himself because Bolinske has been openly critical of him and actually
ran against him for a seat on the Court in 2008.
23.

Justice Sandstrom, in his individual capacity and official capacity, on or about

October 18,2016, in the Blog “Say Anything” stated that Bolinske’s claims of wrongdoing
on Sandstrom and Haggerty’s part were “bizarre and rather sad”. Sandstrom then went on
to say that “Although I’ve been aware of his mental health problems for years I don’t
8

recall - -

Sandstrom’s statements, made during Bolinske’s 2016 N.D. Supreme Court

race were and are absolutely false, intended to cause damage to Bolinske’s campaign and
reputation, and were done in a malicious and scurrilous manner, and constitute
defamation. Bolinske will subsequently amend his Complaint to add a claim'for
punitive damages. Sandstrom’s statements, coming from a sitting Justice of the N.D.
Supreme Court could, would be, and were extremely damaging to attorney Bolinske’s
reputation, career, election and ability to attract clients. Sandstrom’s statements have
absolutely no factual basis whatsoever. Further, although invited several times to respond
to and deity Bolinske’s allegations, under oath or otherwise, Sandstrom has refused to do
so.
24.

Qn or about January 14,2017 Bolinske served on Sandstrom a Demand for

.Retraction/Correction pursuant to North Dakota law. Sandstrom did not respond.
25.

Bolinske has for many years, (approximately 20), had a long and contentious

adverse relationship with Sandstrom and Haggerty. Despite that fact, Sandstrom and
Haggerty regularly unethically and fraudulently refused to recuse themselves in Bolinske’s
cases. That Sandstrom’s remarks were motivated by severe animus and retaliation. (In
fact, Bolinske first intended in 2016 to run against Sandstrom before Sandstrom abruptly
resigned, after, it is believed, learning of Bolinske’s intention to run against Sandstrom for
Sandstrom’s seat on the N.D. Supreme Court, knowing full well that Bolinske’s allegations
against himself and his wife Haggerty would play a central role
in the race, and be investigated.
26.

That the above described circumstances constitutes malicious prosecution and abuse

of process by defendants and their agents, in their individual and official capacities and
constitutes a conspiracy amongst defendants and each and all of them. This same
allegation is made also with respect to paragraphs 27,28 and 29.
9

27.

That the above described circumstances constitute Governmental Bad Faith.

28. That the above described circumstances constitute the intentional and/or negligent
infliction of emotional distress by defendants and their agents.
29.

That the above described circumstances constitute Tortious Outrage.

30.

That, although Bolinske has repeatedly brought his allegations against Sandstrom

and Haggerty to the attention ofthe N.D. Supreme Court, Disciplinary Counsel and
the Disciplinary Board, there has been, to Bolinske’s knowledge, no meaningful
investigation. Instead, Sandstrom has recently been given a prominent award by the
Court
31.

Bolinske does hereby re-allege the allegations he has previously made against

Sandstrom and Haggerty and again invites them to deny the allegations under oath or
otherwise.
32.

Bolinske further contends that the N.D. Supreme Court, including defendants

Crowthers and McEvers, in both their individual and official capacities have engaged
in a massive and wrongful conspiracy and cover-up of this entire matter, to protect
themselves, their reputations and the standing of the N.D. Supreme Court. (If not so, why
would the Court and Disciplinary Counsel make virtually no investigation into such serious
charges, constituting a felony, and instead pursue this fallacious grievance proceeding
against Bolinske?)
33.

That Disciplinary Counsel is hired, paid and can be fired by the Disciplinary

Board which is itself authorized and appointed bv parties appointed bv the N.D. Supreme
Court! In what rational system ofjustice can someone in Bolinske’s position, who is at
odds with the N.D. Supreme Court, and certain of its members, and who is presently
running against one of its members, expect to receive justice and fair play in a disciplinary
procedure dominated, controlled and ultimately decided by that very same N.D. Supreme

10

Court and its underlings?
34. That, as described above, the actions of defendants, and each of them, have been
wrongful, unlawful and contrary to Bolinske’s right to Due Process under the U.S.
Constitution. Those actions have caused Bolinske to experience much stress, distress,
emotional pain and suffering and have required him to spend much time, energy and
financial and other resources in fighting an unfair “rigged”, unconstitutional disciplinary
procedures against him, all to his substantial damage in an amount
exceeding $100,000.00.
35. That Bolinske worked long and hard to obtain his law degree and right to practice
law. His law license and right to practice law are here unfairly under attack, in a
proceeding totally lacking in good faith and due process. Bolinske will simply not
• tolerate this stain upon his hard earned reputation, integrity and ability to earn a
living. His law license, right to practice law andearii a living constitute property
rights which cannot, under the U.S. Constitution, be damaged or taken from him by a
proceeding created by defendants which is totally lacking in due process, reason,
fairness and integrity.
36.

That Bolinske has prior hereto filed a Notice of Claim against defendants on or

about September 19,2017 with the Office of Management and Budget, as required
by law.
37.

That the recent U.S. Supreme Court decision in Janus v. American Federation

case, 138 S.Ct 2448 (2018), and the fact that the U.S. Supreme Court has just returned
the case entitled Arnold Fleck y, Joe Weteh etal. No. 16-1564 to the U.S. Court of
Appeals for the Eighth Circuit, for reconsideration in light of Janus, makes it highly
likely that North Dakota’s mandatory bar will be held to be invalid as a denial of First
Amendment constitutional rights. Bolirdke does therefore also allege, for this reason,
11

also, that the North Dakota disciplinary process is unlawful and that any and all
decisions against him are invalid and void, and that for this reason all defendants
should be restrained and enjoined from pursuing any further disciplinary action now
existing, or in the future against plaintiff Bolinske. Chief Justice Vande Walle, in his
January 3,2019 message to the N.D. Legislature said, regarding Fleck:
And, while 1 do not want to be an alarmist, we are closely watching
a case that was remanded by the United States Supreme Court to the
8th Circuit Court of Appeals concerning the validity of the
mandatory bar in North Dakota. Should the mandatory bar be held
to be valid, our current lawyer disciplinary system would require
extensive statutory change. (Emphasis added.)
38.

Bolinske requests that, because of all the circumstances described herein, that

any and all adverse decisions made by defendants, and/or their agents and employees,
• including the referenced reprimand sanction, be reversed, and that, further, defendants
be restrained and enjoined from pursuing any arid all existing and/or future
V

disciplinary actions against Bolinske, and declaring that the disciplinary processes
now existing for investigating, monitoring and disciplining attorneys is null, void,
invalid and unenforceable as being unconstitutional for the reasons set forth herein.
39.

That, in criticizing Justice Sandstrom and his wife District Judge Haggerty in his

press release, plaintiff Bolinske engaged in constitutionally protected speech. That, in
selective retaliation, adverse action in the form of the described disciplinary action
was taken and engaged in personally, and in their official capacities, by each named
defendant against Bolinske, contrary to his constitutional rights. That action was designed
to deter a person of ordinary firmness from engaging in or continuing to engage in the
exercise of free speech. There here existed a specific causal connection in that the adverse
action described herein was motivated and taken in response to Bolinske’s use and
expected future use of protected conduct
12

40.

That, defendants, and each of them, in their individual and official capacities,

conspired pursuant to a single plan, and shared in the general conspiratorial plan to
pursue disciplinary action against Bolinske to deprive him of his constitutional right
of free speech, and that defendants hatched the plan, pursued the plan through the
disciplinary process and, in the case of defendants Crowthers and McEvers, actually
wrongfully participated in the N.D. Supreme Court’s decision to wrongfully sanction
Attorney Bolinske, all to punish him and dissuade him from exercising his First
Amendment right of freedom of speech, for their own evil, self-serving motives.
Defendants’ actions shock the conscience.
41.

That the conduct of each named defendant, in their individual and official

capacities, was engaged in bad faith, and was motivated by bias, malice, corruption,
* personal animus, fraud and wrongful personal motive, all designed to harm Bolinske
and attempt to prevent him from continuing to efigage in protected freedom of speech.
That these factors remove any and all claimed immunity defendants might otherwise
enjoy. That the described conduct of defendants did in fact harm plaintiff Bolinske as
elsewhere described in this Complaint, and also caused or contributed to (1) a heart
attack and heart damage and (2) Post Traumatic Stress Disorder suffered by Bolinske.
42.

That, as a matter of fact, defendants are engaging right now in virtually the same

type of conduct, similarly motivated, in the form of a long, drawn out specious
disciplinary action against plaintiff Bolinske entitled Disciplinary Board of the
Supreme Court of the State of North Dakota v. Robert V. Bolinske. Sr.. Files Nos.
6176-W-1708 and 6177-W-1708. even though the individuals, Mr. Carter and Mr.
Watson, have long ago abandoned their alleged grievances, and the alleged
grievances in and of themselves approach being downright frivolous. This matter and
all document therein are hereby incorporated herein, but, because of their extensive
13

volume, are not attached. For the types of the harassing conduct all defendants have
visited on plaintifFBolinske in that matter, please see Exhibit A, enclosed herewith,
entitled Respondent Bolinske’s Reply Brief in that matter. Bolinske requests that that
proceeding be restrained and enjoined, and that all adverse rulings and decisions
made therein be deemed null and void.
43.

That defendants, in both their personal and official duty capacities engaged in

fraudulent conduct, as herein described, in punishing Bolinske, in attempting to
deprive plaintiff Bolinske of his protected speech activity, in their cover-up and
failure to investigate Bolinske’s claims regarding Sandstrom and Haggerty, and in
bringing, pursuing and adversely deciding Haggerty’s claimed grievance against
Bolinkse. That fraud vitiates any statute of limitations which might otherwise be
. here applicable. Defendant Sandstrom has now been personally served, and this action
was also commenced against him previously when'his wife (Haggerty) was served,
pursuant to the operation of N.D.C.C.§ 28-01-38. (When action deemed commenced.)
The statute of limitations against defendant Sandstrom was in feet also extended by the
operation of the provisions of N.D.C.C. Chapter 32-43, the Uniform Correction or
Clarification of Defamation Act.
44.

Bolinske’s Notice of Claim is dated September 19,2017, not September 19,

2018, as apparently erroneously believed by defendants’ counsel in his Motion to
dismiss. Therefore, counsel’s calculations regarding dates relating thereto are
inaccurate.
45.

That each defendant’s actions, both individually and in their official duties, and

their joint actions as described herein, were done under color of state law, were
designed to harm Bolinske, Attorney Bolinske’s law practice, reputation and ability to
exercise First Amendment rights. Any and all state laws, rules and/or regulations
14

purporting to justify and/or authorize defendants’ conduct are themselves invalid as being
contrary to and superseded by Bolinske’s constitutional rights made applicable
pursuant to the Fourteenth Amendment Bolinske does not challenge the right or
authority of the North Dakota Supreme Court to discipline attorneys. He challenges
only the flawed, unfair, use of that system as was done here to deny him procedural
and substantive due process, and requests that any and all statutes, rules and/or
regulations so used or relied upon, and not in compliance with constitutional due
process requirements, be declared unenforceable and invalid, and their use be
enjoined in the ongoing present disciplinary action against Bolinske previously
referenced.
WHEREFOR, plaintiff Bolinske prays for a judgment of this Court against the
. defendants, in their individual and official capacities, for such money damages as the
Court and Jury deem just and equitable, in amount in excess of $100,000.00, the injunctive
V.

and declaratory relief requested herein, his attorney fees, his costs and disbursements, and
for such other and further relief as the Court deems just and equitable.

Dated

Robert V. Bolinske
Attorney Pro Se
7600 Northgate Drive
Bismarck, ND 58504
Firstrvb@gmail.com
(701) 390-6015

15

Case l:18-cv-00213-DWF-CRH Document 38 Filed 06/20/19 Page 1 of 12

UNITED STATES DISTRICT COURT
DISTRICT OF NORTH DAKOTA (WESTERN)

Robert V. Bolinske,

Civil No. 18-213 (DWF/CRH)
Plaintiff,

v.

MEMORANDUM
OPINION AND ORDER

North Dakota Supreme Court, State of North Dakota,
Disciplinary Board of the N.D. Supreme Court,
Office of Disciplinary Counsel, Inquiry Committee West,
Dale Sandstrom, Gail Hagerty, Lisa K. McEvers,
Daniel Crothers,
Defendants.

Robert V. Bolinske, Esq., Plaintiff, Pro Se.
Andrew Moraghan, Esq., Attorney General’s Office, Civil Litigation, and Matthew A.
Sagsveen, Esq., Attorney General’s Office, Natural Resources Division, counsel for
Defendants.

INTRODUCTION
This matter is before the Court on Plaintiff Attorney Robert V. Bolinske’s
(“Bolinske”) Motion to Amend his Complaint alleging, among other claims, that
Defendants violated his substantive and Due Process rights (Doc. No. 24), and
Defendants the North Dakota Supreme Court, the State of North Dakota, the Disciplinary
Board of the North Dakota Supreme Court, the Office of Disciplinary Counsel, the
Inquiry Committee West, North Dakota Supreme Court Former Justice Dale Sandstrom
(“Justice Sandstrom”), North Dakota District Judge Gail Hagerty (“Judge Hagerty”),

Case l:18-cv-00213-DWF-CRH Document 38 Filed 06/20/19 Page 2 of 12

North Dakota Supreme Court Justice Lisa K. McEvers (“Justice McEvers”), and
North Dakota Supreme Court Justice Daniel Crothers’(“Justice Crothers”) (together,
“Defendants”) Motion to Dismiss (Doc. No. 7). For the reasons discussed below, the
Court denies Plaintiffs motion to amend without prejudice and grants Defendants’
motion to dismiss without prejudice.

BACKGROUND
Bolinske is an attorney admitted to practice law in North Dakota.1 (Doc. No. 241, Ex. 1 Proposed Amended Complaint (“Am. Compl.”) J 3.) Defendant State of
North Dakota is a state by and existing within the United States of America. (Am.
Compl. *\\ 3.) Defendant North Dakota Supreme Court is an entity of government created
by the State of North Dakota. (Id.) Defendants Disciplinary Board of the North Dakota
Supreme Court (the “Board”), Office of Disciplinary Counsel (the “Counsel”), and
Inquiry Committee West (“Inquiry Committee”) are entities created by the North Dakota
Supreme Court. (Id.) Defendants Justice McEvers and Justice Crothers are Justices of
the North Dakota Supreme Court. (Id.) Defendant Justice Sandstrom is a former Justice
of the North Dakota Supreme Court. (Id.) Defendant Judge Hagerty is a North Dakota
District Court Judge. (Id.)
In October 2016, Bolinske alleged in a press release that Justice Sandstrom
tampered with public records and conspired with his wife, Judge Hagerty, to intentionally

j

misfile Bolinske’s Petition for Supervisory Writ, in which Bolinske criticized Judge

1
As Bolinske acknowledged at the motions hearing held May 29, 2019, he has
allowed his license to expire but remains eligible to renew his license.
2

Case l:18-cv-00213-DWF-CRH Document 38 Filed 06/20/19 Page 3 of 12

Hagerty. (Id. H 4-5.) On October 21, 2016, Judge Hagerty filed a Grievance Complaint
against Bolinske for ethical violations of the North Dakota Rules of Professional
Conduct. (Id. f 13.)
Pursuant to Judge Hagerty’s Grievance, the Inquiry Committee held a hearing
lasting 30 to 45 minutes, at the end of which it concluded that Bolinske’s allegations were
made “knowingly or with reckless disregard as to their truth or falsity,” in violation of the
Rules of Professional Conduct, and recommended that an admonition be issued.
(Id. H 14, 16.) The Inquiry Committee based its finding in part on a letter from Chief
Justice Gerald Vande Walle that attributed the misfiling of the petition critical of Judge
Hagerty to the entry of the wrong name during a data transfer. (Id. 115.) Bolinske
appealed the Inquiry Committee’s finding. (Id. 116.) On July 24, 2017, the Board
affirmed the Inquiry Committee’s decision to issue an admonition. (Id)
The North Dakota Supreme Court affirmed the Disciplinary Board’s decision. (Id.
117; see also Matter ofBolinske, 908 N.W. 2d 462, reh’g denied (N.D. 2018).) In its
opinion, the North Dakota Supreme Court recounted the procedural history of the case,
noting that Bolinske appeared before the Inquiry Committee and provided documentary
evidence in support of his opposition. Bolinske, 908 N.W. 2d at 463. The opinion further
noted that the North Dakota Supreme Court granted Bolinske’s appeal pursuant to the
North Dakota Rules for Lawyer Discipline, which provide that “leave will not be granted
unless the person seeking leave to appeal shows that the [BJoard acted arbitrarily,
capriciously, or unreasonably.” Id. at 463-64 (citing N.D.R. Lawyer Discipl. 3.1(D)(8)).
The North Dakota Supreme Court interpreted the Rule governing the initial decision to
3

Case l:18-cv-00213-DWF-CRH Document 38 Filed 06/20/19 Page 4 of 12

grant leave as applicable “only in reviewing procedural aspects of the [Board’s] decision,
rather than in reviewing the substantive evidence relied upon to support imposition of
disciplinary actions.” Id. The North Dakota Supreme Court examined Bolinske’s
contentions that the Board’s decision affirming the admonition was arbitrary, capricious,
and unreasonable and that it additionally deprived him of adequate due process. Id. at
464. The North Dakota Supreme Court concluded that while an attorney subject to
disciplinary proceedings is indeed entitled to procedural due process, “including fair
notice of the nature of the charges and an opportunity to be heard,” such due process
“does not require a full dress adversary proceeding.” Id. (internal quotation omitted). In
its opinion, the North Dakota Supreme Court found that Bolinske failed to establish a
lack of due process in his “informal” disciplinary proceedings because he “received the
process due to him under the [Rjules and had sufficient opportunity to be heard.” Id. at
465. As he acknowledged during oral arguments in this matter, Bolinske did not file a
petition for a writ of certiorari to appeal the North Dakota Supreme Court’s decision.
Bolinske alleges that Justice McEvers, when participating in the North Dakota
Supreme Court’s deliberations, knew that Bolinske planned to run against her in an
upcoming election and failed to recuse herself at an appropriate time.2 (Am. Compl.
22.) Bolinske similarly alleges that Justice Crothers, who also took part in the
North Dakota Supreme Court’s deliberations, knew that Bolinske ran against him for a

2
Justice McEvers participated in the oral argument but subsequently disqualified
herself, and according to the opinion issued, did not participate in the decision. Bolinske,
908 N.W.2d at 465. The audio recording of the oral arguments is available at:
https://www.ndcourts.gov/supreme-court/dockets/20170333.
4

Case l:18-cv-00213-DWF-CRH Document 38 Filed 06/20/19 Page 5 of 12

seat on the Court in 2008. (Id.) By way of showing pervasive bias, Bolinske also alleges
that Justice Sandstrom and Judge Hagerty continually failed to recuse themselves from
presiding over Bolinske’s cases despite the longtime existence of adversarial political
relationships. (Id. 125.) Further demonstrating bias and causing harms for which
Bolinske intends to seek punitive damages, Justice Sandstrom made public statements
about Bolinske’s allegations of wrongdoing, telling a political commentator that
Bolinske’s claims were “bizarre and rather sad,” and that Justice Sandstrom had been
“aware of [Bolinske’s] mental health problems for years.” (Id.

23.) Bolinske further

alleges that Defendants conspired to cover up Bolinske’s allegations and that no
investigation into the matter was performed. (Id. *[}][ 30, 32-33.)
Bolinske argues that Defendants are repeating their wrongful conduct by once
again subjecting him to disciplinary proceedings.3 (Id. If 42; see In the Matter of the
Application for Disciplinary Action Against Robert V. Bolinske, File No. 6177-W-1708.)
Bolinske commenced this action on October 22, 2018, alleging infringement of
Bolinske’s Due Process rights, defamation, malicious prosecution, intentional infliction
of emotional distress, and negligent emotional distress. (Id. at

1, 26, 28, 34.) On

November 15, 2018, Defendants filed a Motion to Dismiss on grounds that this Court
lacks subject matter jurisdiction or personal jurisdiction over Justice Dale Sandstrom in

3

The parties informed the Court at oral arguments that Bolinske has an additional
pending state court matter, a defamation lawsuit against Defendants that is stayed
pending the outcome of this case and his disciplinary proceedings. As the parties did not
provide more detail in the record and do not focus their arguments on this suit, it does not
affect the analysis in this matter and will not be addressed at any length.
5

Case l:18-cv-00213-DWF-CRH Document 38 Filed 06/20/19 Page 6 of 12

his individual capacity, and the Complaint fails to state a claim. (Doc. No. 7.) On March
1, 2019, Plaintiff filed a motion to amend. (Doc. No. 24.) Both parties supplemented
their submissions with additional briefing. (Doc. Nos. 34, 35.) Oral arguments were
heard on May 29, 2019. (Doc. No. 37.)
DISCUSSION
I.

Legal Standard
In deciding a motion to dismiss pursuant to Rule 12(b)(6), a court assumes all

facts in the complaint to be true and construes all reasonable inferences from those facts
in the light most favorable to the complainant. Blankenship v. USA Truck, Inc., 601 F.3d
852, 853 (8th Cir. 2010). In doing so, however, a court need not accept as true wholly
conclusory allegations, Hanten v. Sch. Dist. ofRiverview Gardens, 183 F.3d 799, 805
(8th Cir. 1999), or legal conclusions drawn by the pleader from the facts alleged,
Westcott v. City, of Omaha, 901 F.2d 1486, 1488 (8th Cir. 1990). A court may consider
the complaint, matters of public record, orders, materials embraced by the complaint, and
exhibits attached to the complaint in deciding a motion to dismiss under Rule 12(b)(6).
Porous Media Corp. v. Pall Corp., 186 F.3d 1077, 1079 (8th Cir. 1999).
To survive a motion to dismiss, a complaint must contain “enough facts to state a
claim to relief that is plausible on its face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544,
545 (2007). Although a complaint need not contain “detailed factual allegations,” it must
contain facts with enough specificity “to raise a right to relief above the speculative
level.” Id. at 555. As the United States Supreme Court reiterated, “[t]hreadbare recitals
of the elements of a cause of action, supported by mere conclusory statements,” will not
6

Case l:18-cv-00213-DWF-CRH Document 38 Filed 06/20/19 Page 7 of 12

pass muster under Twombly. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing
Twombly, 550 U.S. at 555). In sum, this standard “calls for enough fact[s] to raise a
reasonable expectation that discovery will reveal evidence of [the claim].” Twombly, 550
U.S. at 556.
II.

Abstention Doctrine
Bolinske’s allegations about past and present state court matters implicate more

than one established abstention doctrine. In its seminal decision of almost fifty years ago,
the Supreme Court made clear that since “the beginning of this country’s history”
Congress has manifested its desire to permit state courts to try state cases free from
interference from federal courts. Younger v. Harris, 401 U.S. 37, 43 (1971). Federal
district courts should refrain from interfering when the moving party has an adequate
remedy at law and will not suffer irreparable injury if denied equitable relief. Younger,
401 U.S. at 43-44. A district court must abstain when: (1) there is a pending state
proceeding, (2) that implicates an important state interest, and (3) affords an adequate
opportunity to raise federal statutory and constitutional challenges. Gillette v. N. Dakota
Disciplinary Bd. Counsel, 610 F.3d 1045, 1048 (8th Cir. 2010); see also Gray v. Devils
Lake Pub. Sck, 316 F. Supp. 3d 1092, 1102 (D.N.D. 2018).
Generally, federal courts do not have jurisdiction to review an order of a state
court disbarring an attorney for personal and professional misconduct. In re Rhodes, 370
F.2d 411,413 (8th Cir. 1967). A State’s “extremely important interest in maintaining and
assuring the professional conduct of the attorneys it licenses” calls for Younger

1

Case l:18-cv-00213-DWF-CRH Document 38 Filed 06/20/19 Page 8 of 12

abstention. Gillette, 610 F.3d at 1047 (quoting Middlesex County Ethics Comm. v.
Garden State Bar Ass’n, 457 U.S. 423, 434 (1982)).
The Rooker-Feldman doctrine recognizes that, with the exception of habeas
corpus petitions, district courts lack subject matter jurisdiction over challenges to state
court judgments, both in rare cases styled as direct appeals and more common claims
which are “inextricably intertwined” with state court decisions. King v. City of
Crestwood, Missouri, 899 F.3d 643, 647 (8th Cir. 2018) (citing Rooker v. Fidelity Trust
Co., 263 U.S. 413 (1923); District of Columbia Court ofAppeals v. Feldman, 460 U.S.
462 (1983)). Reversal of a state court decision may not be obtained in federal court by
challenging the motives of the state court judge. Muhammed v. Ark. Supreme Court
Comm, on Prof’l Conduct, 655 F. Supp. 584, 586 (E.D. Ark. 1986), aff d sub nom.
Muhammed v. Ark. Supreme Court, 815 F.2d 711 (8th Cir. 1987). The remedies available
include appeal in state court, filing a complaint with a judicial discipline or oversight
board, and seeking review from the United States Supreme Court, “but one is not entitled
to collateral review in federal court.” Muhammed, 655 F. Supp. at 586.
Bolinske attempts here to relitigate his previous disciplinary matter in order to
show present bias and misconduct. This directly implicates Rooker-Feldman abstention,
and as such, the Court will not engage in a review of the North Dakota Supreme Court
decision that Bolinske declined to properly appeal.
Abstention under Younger doctrine is only proper if state disciplinary hearings
constitute an ongoing state judicial proceeding and provide adequate opportunity to raise
constitutional challenges. Gillette, 610 F.3d at 1047. Bad faith, harassment, or “other
8

Case l:18-cv-00213-DWF-CRH Document 38 Filed 06/20/19 Page 9 of 12

extraordinary circumstance” is an exception to abstention under Younger. Id; see also
Plouffe v. Ligon, 606 F.3d 890, 892-93 (8th Cir. 2010). Bolinske bears the burden to
show that the disciplinary proceedings do not afford him adequate opportunity to raise his
constitutional claims. Plouffe, 606 F.3d at 893.
The North Dakota Rules for Lawyer Discipline provide several mechanisms to
protect attorneys accused of misconduct warranting sanction. For example, the Rules
require that a copy of a complaint be provided to the lawyer accused, and the lawyer must
be given notice of the opportunity to appear before the district inquiry committee before
entry of any discipline or referral for fonnal proceedings. N.D.R. Lawyer Discipl.
3.1 (D)(2), (7). The Rules then require that the lawyer be promptly notified in writing of
the disposition of the complaint and the reasons for the decision made. N.D.R. Lawyer
Discipl. 3.1(D)(8). The Rules also provide opportunities for the lawyer to argue issues of
fact or mitigation and to request review of decisions by the district inquiry committee and
the hearing panel. N.D.R. Lawyer Discipl. 3.1(D)(8), (E)(3). The Rules also state that
the notice of hearing before the hearing panel assigned in formal proceedings must advise
the subject lawyer that he or she is entitled to be represented by counsel, to cross-examine
witnesses, and to present evidence. N.D.R. Lawyer Discipl. 3.1 (E)(1), (3).
Recently enough that many of the current justices were involved in the decision,
the North Dakota Supreme Court elaborated upon its reviews of disciplinary proceedings,
explaining that disciplinary counsel are required to prove each violation “by clear and
convincing evidence,” meaning that “the trier of fact must be reasonably satisfied with
the facts the evidence tends to prove and thus be led to a firm belief or conviction.” In re
9

Case l:18-cv-00213-DWF-CRH Document 38 Filed 06/20/19 Page 10 of 12

Disciplinary Action against Lee, 835 N.W.2d 836, 839 (N.D. 2013). The North Dakota
Supreme Court does not act “as a mere rubber stamp for the Board,” and considers
aggravating and mitigating circumstances in assessing the appropriate discipline in a
case. Lee, 835 N.W.2d at 839, 843.
A federal district court should not engage in any presumption that state courts will
not safeguard federal constitutional rights. Norwood v. Dickey, 409 F.3d 901, 904 (8th
Cir. 2005) (internal quotations and citations omitted). In a factually similar case, a
disbarred attorney was required to present his arguments in proceedings before his state’s
highest court even though he alleged that the court was so biased against him due to his
public criticism of the state judiciary and his attempt to become a candidate for a state
supreme court seat that he would not receive a real opportunity to raise his constitutional
claims. See Peterson v. Sheran, 635 F.2d 1335 (8th Cir. 1980).
Based on the record before the Court there is not sufficient reason to conclude that
Bolinske will not have access to due process in his pending state matters, and this Court
will not speculate about the reactions he will receive to his constitutional arguments.
Bolinske’s claims implicate pending and settled state matters involving important state
interests, and there is no cause to predict that his state proceedings will not afford him
adequate opportunity to raise relevant federal questions. The requirements for abstention
under both the Younger and Rooker-Feldman doctrines have been met.
III.

Futility
Federal Rule of Civil Procedure 15(a)(1) provides:

10

Case l:18-cv-00213-DWF-CRH Document 38 Filed 06/20/19 Page 11 of 12

A party may amend its pleading once as a matter of course within: (A)
21 days after serving it, or (B) if the pleading is one to which a responsive
pleading is required, 21 days after service of a responsive pleading or 21 days
after service of a motion under Rule 12(b), (e), or (f), whichever is earlier.
A district court should freely give leave to amend a complaint when justice so
requires, but a district court does not abuse its discretion when it denies a motion to
amend a complaint because the amendment is futile or will unduly prejudice the
nonmoving party. Popoalii v. Corr. Med. Servs., 512 F.3d 488, 497 (8th Cir. 2008)
(internal quotations and citations omitted). “A motion to amend is properly denied as
futile when the proposed amended complaint cannot survive a motion to dismiss for
failure to state a claim.” Popoalii, 512 F.3d at 497 (internal quotation omitted). As noted
above, to withstand a motion to dismiss, a complaint must allege sufficient facts Such
that, when accepted as true, a facially plausible claim to relief is stated. Iqbal, 556 U.S.
at 678; see also Fed. R. Civ. P. 12(b)(6). Here, even construing all facts in Bolinske’s
favor, his claim cannot prevail because of the jurisdictional issues detailed above.
Defendants also contend that Bolinske’s motion to amend and his original claim
should be dismissed for a host of procedural failings and sundry deficiencies. The
pending status of this matter means that this Court cannot properly consider this case at
this time, and as such, it will not engage in any analysis that could be construed as an
advisory ruling on the substantive issues.

11

Case l:18-cv-00213-DWF-CRH Document 38 Filed 06/20/19 Page 12 of 12

CONCLUSION
The Court declines the parties’ invitation to delve deeply into matters of
immunity, governmental bad faith, and related issues. At this stage, it would be improper
for this Court to weigh in on substantive legal questions that are properly before the
North Dakota Supreme Court in Bolinske’s pending matter.
ORDER
Based on the files, records, and proceedings herein, and for the reasons set forth
above, IT IS HEREBY ORDERED that Plaintiff Robert V. Bolinske’s Motion to
Amend his Complaint (Doc, No. [24]) is DENIED WITHOUT PREJUDICE. IT IS
FURTHER ORDERED that Defendants the North Dakota Supreme Court, the State of
North Dakota, the Disciplinary Board of the North Dakota Supreme Court, the Office of
Disciplinary Counsel, the Inquiry Committee West, North Dakota Supreme Court Former
Justice Dale Sandstrom, North Dakota District Judge Gail Hagerty, North Dakota
Supreme Court Justice Lisa K. McEvers, and North Dakota Supreme Court Justice Daniel
Crothers’ Motion to Dismiss (Doc. No. [7]) is GRANTED WITHOUT PREJUDICE.
LET JUDGMENT BE ENTERED ACCORDINGLY.
Dated: June 20, 2019

s/Donovan W. Frank
DONOVAN W. FRANK
United States District Judge

12

f
■:4%

©mteb States Court of appeals
Jfor tfje

Circuit

No. 19-2516

Robert V. Bolinske,
Plaintiff - Appellant,
v.
North Dakota Supreme Court; State of North Dakota; Disciplinary Board of the
North Dakota Supreme Court; Office of Disciplinary Counsel; Inquiry Committee
West; Dale V. Sandstrom, N.D. Supreme Court Former Justice; Gail Hagerty, N.D.
District Judge; Lisa K. McEvers, N.D. Supreme Court Justice; Daniel Crothers,
N.D. Supreme Court Justice,
Defendants - Appellees.

Appeal from United States District Court
for the District of North Dakota - Bismarck

Submitted: April 16, 2020
Filed: August 4, 2020
[Unpublished]

Before COLLOTON, GRUENDER, and GRASZ, Circuit Judges.

PER CURIAM.
This appeal relates to an attorney discipline proceeding in North Dakota against
attorney Robert V. Bolinske. Approximately six months after the close of that
proceeding in 2018, Bolinske sued various state officials and entities in the district
court, alleging several causes of action under federal and state law, and resulting
damages. He later sought to amend his complaint to include additional claims. On
a motion to dismiss, the district court1 determined that it lacked jurisdiction over the
claims in the original complaint, and that Bolinske’s proposed amendments would be
futile. We affirm.
In October 2016, while campaigning for a position on the North Dakota
Supreme Court, Bolinske issued a press release claiming that North Dakota Supreme
Court Justice Dale Sandstrom and North Dakota District Judge Gail Hagerty had
tampered with public records. Hagerty filed a grievance complaint against Bolinske,
asserting that his actions violated the North Dakota Rules of Professional Conduct.
An Inquiry Committee concluded that Bolinske violated a rule against making false
statements concerning the integrity of a judge, and a rule requiring judicial candidates
to act with impartiality, integrity, and independence. The Inquiry Committee issued
an admonition to Bolinske, determining that the allegations in his press release were
made knowingly or with reckless disregard as to their truth or falsity.
Bolinske appealed the decision to the Disciplinary Board of the North Dakota
Supreme Court. The Board affirmed the decision without a hearing. Bolinske
appealed further to the North Dakota Supreme Court, where he argued that the
procedures employed by the Inquiry Committee and the Board violated his
constitutional rights under the Due Process Clause. The court held that his right to

]The Honorable Donovan W. Frank, United States District Judge for the
District of Minnesota, sitting by designation.
-2-

due process was satisfied. Matter ofBolinske, 908 N.W.2d 462,465 (N.D. 2018) (per
curiam).
After the North Dakota court denied a petition for rehearing, Bolinske filed this
lawsuit. He claimed that the disciplinary proceedings deprived him of his rights to
substantive and procedural due process under the federal constitution. He also
claimed that the defendants engaged in an unlawful conspiracy, and he asserted statelaw claims of malicious prosecution, abuse of process, intentional infliction of
emotional distress, governmental bad faith, tortious outrage, and defamation. He
sought damages and named nine defendants: the State of North Dakota, the Supreme
Court of North Dakota, the Disciplinary Board, the Inquiry Committee, the Office of
Disciplinary Counsel, Sandstrom, Hagerty, and two Justices of the North Dakota
Supreme Court who had considered his case.
The defendants moved to dismiss the complaint on the ground that the court
lacked jurisdiction under the Rooker-Feldman doctrine. See D.C. Court ofAppeals
v. Feldman, 460 U.S. 462 (1983); Rooker v. Fidelity Tr. Co., 263 U.S. 413 (1923).
Before the court ruled on the motion, Bolinske moved to amend his complaint. The
proposed amended complaint included new citations to four statutes in the section on
jurisdiction and venue, specified that he sued all individuals in their individual and
official capacities, and added a request for declaratory and injunctive relief on the due
process claims. The proposed amendment also alleged two new First Amendment
claims, under which Bolinske sought damages, a reversal of the judgment in the
previous disciplinary proceedings, a declaration that North Dakota’s procedures for
attorney discipline are unenforceable, an injunction against a separate, ongoing
disciplinary proceeding, and a declaration that any adverse rulings in the separate
proceeding are void.

-3-

The court resolved the motion to dismiss and the motion to amend in a single
order. The court described Bolinske’s claims in the original complaint as an
“attempt[]... to relitigate” the state disciplinary proceeding, and determined that it
lacked jurisdiction over those claims under the Rooker-Feldman doctrine. The
district court’s conclusion finds support in decisions of other circuits. Scott v.
Frankel, 562 F. App’x 950, 953-54 (11th Cir. 2014) (per curiam); Mothershed v.
Justices of the Supreme Court, 410 F.3d 602, 607 (9th Cir. 2005). As to the proposed
amended complaint, the court said that it would be required under the doctrine of
Younger v. Harris, 401 U.S. 37 (1971), to abstain from considering a request for an
injunction against an ongoing disciplinary proceeding. The court denied Bolinske’s
motion for leave to amend his complaint, explaining that “even construing all facts
in Bolinske’s favor, his claim cannot prevail because of the jurisdictional issues”
under Rooker-Feldman and Younger.
In this appeal, Bolinske emphasizes that “the only issue before the Court on
this appeal is whether Bolinske’s Motion to Amend Complaint should have been
granted.” Reply Br. 2. We therefore do not address the district court’s dismissal of
the original complaint based on the Rooker-Feldman doctrine, and we accept the
court’s decision on that point as the law of the case. See Little Earth of the United
Tribes, Inc. v. U.S. Dep’tofHous. & Urban Dev., 807 F.2d 1433, 1440-41 (8th Cir.
1986). Taking the dismissal as a given, we examine only whether the court properly
denied Bolinske’s proposed amendments as futile.
The proposed amended complaint renewed Bolinske’s due process, conspiracy,
and tort claims relating to the prior disciplinary proceedings. Bolinske’s proposed
amendments to the renewed claims were futile in light of the district court’s ruling on
Rooker-Feldman. Including citations to jurisdictional statutes, clarifying the capacity
in which the defendants were sued, and adding requests for injunctive and declaratory
relief would not address the crux of the district court’s order of dismissal. Insofar as
the claims in the original complaint were an improper attempt to relitigate the state
-4-

disciplinary proceedings, the renewed claims would have attempted to do the same.
The court thus did not err in concluding that these proposed amendments would have
been futile.
Bolinske’s proposed amended complaint also would have asserted First
Amendment claims that sought damages, reversal of the judgment from the prior
proceeding, and a declaration that “the disciplinary processes now existing” are “null,
void, invalid, and unenforceable.” The district court did not mention these particular
claims, but we conclude that they would be barred by the doctrine of claim
preclusion. “[A] valid, final judgment is conclusive regarding claims raised, or
claims that could have been raised and decided, as to the parties and their privies in
all other actions.” Martin v. Marquee Pac., LLC, 906 N.W.2d 65, 72 (N.D. 2018).
The defendants, as alleged participants in the disciplinary process against Bolinske,
represent the same legal right as the Disciplinary Board, so they are in privity with
the Board. See Hofsommer v. Hofsommer Excavating, Inc., 488 N.W.2d 380, 384
(N.D. 1992). Although an attorney likely could not seek damages or sweeping
declaratoryjudgments in North Dakota disciplinary proceedings, Bolinske could have
raised First Amendment defenses before the state supreme court in his appeal from
the decision of the Board. See In re Disciplinary Action Against Garaas, 652 N.W.2d
918, 925 (N.D. 2002) (per curiam). The doctrine of claim preclusion “should be
applied as fairness and justice require,” Wetch v. Wetch, 539 N.W.2d 309, 312 (N.D.
1995), and it should not permit an attorney to avoid the preclusive effect of
disciplinary proceedings simply by adding a request for damages or declaratory relief
in a later federal complaint. The proposed First Amendment claims thus would have
been precluded and futile insofar as they sought retrospective relief.
The proposed First Amendment claims also would have sought injunctive relief
to halt a separate, ongoing disciplinary proceeding against Bolinske and declaratory
relief that any rulings in that proceeding are null and void. The district court ruled
that it would have been required to abstain from hearing these claims. The Younger
-5-

dispute may require other officials to consider whether their relationships with the
disputants call for recusal. But none of this is unique to the situation or sufficient to
establish bad faith or harassment. We see no cause to depart from the “longstanding
public policy against federal court interference with state court proceedings.”
Younger, 401 U.S. at 43.
Bolinske also argues that Younger should not bar his claim for an injunction
because he “waived all his constitutional claims” in the ongoing proceedings “so that
they would not be ‘pending’ in state court.” We have rejected similar attempts by
plaintiffs to evade Younger abstention by declining to pursue federal claims in state
court proceedings. See Night Clubs, Inc. v. City ofForth Smith, 163 F.3d 475, 481
(8th Cir. 1998). “[Wjhen a litigant has not attempted to present his federal claims in
related state-court proceedings, a federal court should assume that state procedures
will afford an adequate remedy.” Pennzoil Co. v. Texaco, Inc., 481 U.S. 1,15 (1987).
We therefore conclude that the proposed amendment to add First Amendment claims
with requests for injunctive and declaratory relief would have been futile.
The judgment of the district court is affirmed.

-7-

